TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Additional Steps Are Needed to Better
                 Ensure Audits Are Expanded to Prior and/or
                 Subsequent Year Returns When Substantial
                            Taxes May Be Owed



                                       September 9, 2011

                              Reference Number: 2011-30-084




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


ADDITIONAL STEPS ARE NEEDED TO                        evaluate the returns for potential areas of
BETTER ENSURE AUDITS ARE                              noncompliance. If poorly performed, filing
EXPANDED TO PRIOR AND/OR                              checks can diminish the effectiveness of a
SUBSEQUENT YEAR RETURNS WHEN                          process that is designed to ensure voluntary
                                                      compliance and increase the overall compliance
SUBSTANTIAL TAXES MAY BE OWED
                                                      coverage of every audit.
                                                      WHAT TIGTA FOUND
Highlights                                            TIGTA identified three factors that likely
Final Report issued on September 9,                   contributed to our concerns with expanding
2011                                                  audits. First, the IRS strives to keep its audit
                                                      inventories free of old tax year returns. As a
                                                      result, tax compliance officers seldom expand
Highlights of Reference Number: 2011-30-084
                                                      an audit to a taxpayer’s prior year return.
to the Internal Revenue Service Commissioner
                                                      Second, case file documentation does not
for the Small Business/Self-Employed Division.
                                                      indicate that tax compliance officers are taking
IMPACT ON TAXPAYERS                                   full advantage of the IRS’s internal sources of
                                                      information when conducting required filing
Internal Revenue Service (IRS) estimates show         checks. Third, the IRS’s performance feedback
that $197 billion of the $345 billion of taxes that   mechanisms are not always taken advantage of
should have been paid on time but were not (the       to hold tax compliance officers accountable for
Tax Gap) is caused by individuals                     the quality of their filing checks.
underreporting their income tax liabilities.
TIGTA evaluated single-year audits of individual      WHAT TIGTA RECOMMENDED
returns for which the taxpayers involved agreed
                                                      TIGTA recommended that the Director, Exam
they understated their tax liabilities by more than
                                                      Policy, Small Business/Self-Employed Division,
$4,400. Although similar tax issues may have
                                                      provide: 1) detailed examples to tax compliance
existed on the returns these individuals filed for
                                                      officers on when it would be appropriate to
the prior and/or subsequent tax years, the audits
                                                      expand audits to prior and/or subsequent year
were not expanded to these other returns in
                                                      returns, 2) information to tax compliance officers
48 of the 100 sample cases TIGTA reviewed.
                                                      that focuses on using the IRS’s automated
As a consequence, opportunities may have
                                                      information systems to enhance the quality of
been missed to address the noncompliance that
                                                      required filing checks, and 3) additional
contributes to the Tax Gap and promote tax
                                                      guidance to first-line managers to improve the
system fairness among the vast majority of
                                                      feedback provided to tax compliance officers on
taxpayers who properly report and pay their
                                                      the quality of required filing checks.
taxes year in and year out.
                                                      In their response to the report, IRS officials
WHY TIGTA DID THE AUDIT                               agreed with the recommendations and plan to:
This audit was initiated to determine whether tax     1) provide examples in internal publications that
compliance officers in the Small Business/            show when it is appropriate to expand audits,
Self-Employed Division are conducting required        2) conduct a workshop on using IRS automated
filing checks in accordance with IRS policies and     systems, and 3) improve the feedback provided
procedures. The review is part of our planned         to tax compliance officers on the quality of their
Fiscal Year 2011 audit coverage and addresses         filings checks. Although IRS officials agreed
the major management challenge of Tax                 with all three recommendations, they did not
Compliance Initiatives.                               agree with the potential monetary benefits
                                                      associated with the recommendations.
IRS examiners complete certain filing checks to
determine that the taxpayer under audit is
complying with all Federal tax return filing
requirements. Examiners are also required to
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 9, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Steps Are Needed to Better Ensure
                             Audits Are Expanded to Prior and/or Subsequent Year Returns When
                             Substantial Taxes May Be Owed (Audit #201030042)

 This report presents the results of our review to determine whether tax compliance officers in the
 Small Business/Self-Employed Division are conducting required filing checks in accordance
 with the Internal Revenue Service’s (IRS) policies and procedures. The review was part of our
 Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge area of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                            Additional Steps Are Needed to Better Ensure Audits
                        Are Expanded to Prior and/or Subsequent Year Returns When
                                      Substantial Taxes May Be Owed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Management Controls Are in Place to Help Guide
          Examiners to Properly Complete Required Filing Checks ........................... Page 3
          Additional Steps Are Needed to Enhance the Quality of
          Required Filing Checks................................................................................. Page 5
                    Recommendations 1 through 3:......................................... Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measure ................................................................ Page 17
          Appendix V – Management’s Response to the Draft Report ....................... Page 19
            Additional Steps Are Needed to Better Ensure Audits
        Are Expanded to Prior and/or Subsequent Year Returns When
                      Substantial Taxes May Be Owed




                      Abbreviations

EQRS            Embedded Quality Review System
FY              Fiscal Year
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
RFC             Required Filing Check
SB/SE           Small Business/Self-Employed
TCO             Tax Compliance Officer
                      Additional Steps Are Needed to Better Ensure Audits
                  Are Expanded to Prior and/or Subsequent Year Returns When
                                Substantial Taxes May Be Owed




                                       Background

Internal Revenue Service (IRS) estimates show that $197 billion of the $345 billion of taxes that
should have been paid on time but were not (the Tax Gap) is caused by individuals
underreporting their income tax liabilities. Spread across four operating divisions, the IRS audit
program identifies billions of dollars in additional income taxes owed and is one of the largest
compliance programs the IRS uses to help remedy the noncompliance that contributes to the Tax
Gap.
The IRS has several sources from which to select individual tax returns for audit. One source is
the Discriminant Index Function, which is an automated system for scoring individual tax returns
according to their audit potential. In general, the higher the Discriminant Index Function score,
the greater the chance the audit will result in a material tax change. The IRS’s policy also allows
returns to be selected through non-Discriminant Index Function sources (e.g., studies/research
projects, third-party document matching, and referrals from other Federal and State Government
agencies).
Once selected, audits of individual taxpayers can range from reviewing their tax returns and
resolving questionable items by corresponding with them through the mail to a face-to-face audit
in an IRS office or at a taxpayer’s place of business. In contrast to the more detailed and lengthy
face-to-face audit at a taxpayer’s place of business, the office audit process typically takes less
time and is conducted by an examiner who is referred to as tax compliance officer (TCO). In
general, TCOs are trained to deal with and focus on less complex tax issues than examiners who
conduct audits at the taxpayer’s place of business.
During their audits, TCOs are required to determine whether taxpayers are filing required tax
returns. The initial step in this process is to access internal data sources and verify that required
prior and subsequent year returns, related returns, information returns, and employment tax
returns were filed. In addition to verifying that tax returns were filed, required filing checks
(RFC) require TCOs to evaluate the tax returns for potential areas of noncompliance and expand
the audit to include additional tax returns as warranted. Properly executed RFCs are designed to
ensure voluntary compliance and to leverage resources by increasing the overall compliance
coverage of every audit.
This review was performed at the Small Business/Self-Employed (SB/SE) Division Examination
function in New Carrollton, Maryland, and the IRS National Headquarters in Washington, D.C.,
during the period August 2010 through January 2011. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the

                                                                                              Page 1
                     Additional Steps Are Needed to Better Ensure Audits
                 Are Expanded to Prior and/or Subsequent Year Returns When
                               Substantial Taxes May Be Owed



evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                      Additional Steps Are Needed to Better Ensure Audits
                  Are Expanded to Prior and/or Subsequent Year Returns When
                                Substantial Taxes May Be Owed




                                Results of Review

Despite an emphasis on case file documentation and layers of management controls, additional
steps are needed to better ensure that TCOs expand audits to include the prior and/or subsequent
year when substantial taxes may be owed. We found 48 audits where individuals may have
avoided tax, interest, and penalty assessments totaling an estimated $461,184 after potential tax
issues were not pursued on the prior and/or subsequent year returns they filed. In addition, TCOs
did not always check to ensure required information and employment tax returns were filed.

Management Controls Are in Place to Help Guide Examiners to
Properly Complete Required Filing Checks
Ultimately, the IRS relies on its examiners to ensure RFCs are properly performed. To assist
examiners in meeting this responsibility, the IRS has developed and implemented a number of
policies, procedures, and techniques (management controls). At the agency level, broad policy
statements provide guidance nationwide to IRS personnel who are involved in IRS programs and
activities. Of the 184 IRS Policy Statements, 36 cover examination issues, such as taxpayer
rights and examiner responsibilities.
At the division level, the quality measurement staff in the SB/SE Division reviews a statistically
valid sample of examination cases to assess the degree to which SB/SE Division examiners
complied with RFCs. In addition to reviews by the SB/SE Division quality measurement staff,
mid-level managers in the SB/SE Division may evaluate ongoing work during operational
reviews. Operational reviews are required to be performed at least annually to ensure work is
being done effectively. These processes serve as a quality control by identifying managerial,
technical, and procedural problems and providing a basis for corrective actions.
At the examiner level, first-line managers are also an important control component because they
are responsible for the quality of work performed by the examiners they supervise. They use a
variety of techniques to ensure examiners’ work is meeting acceptable standards and procedures
are followed in planning, initiating, and conducting RFCs. These techniques include
observations and discussions with examiners and reviews of work during examinations and after
they are closed. Through these observations, discussions, and reviews, first-line managers
attempt to identify problems so examiners can take prompt corrective actions.
The Internal Revenue Manual (IRM) is another important control component because it contains
the official compilation of detailed instructions and explanations of the RFCs for examiners to
follow during examinations. Throughout the IRM, examiners are instructed to properly
document in examination case files all aspects of their work during the planning, initiating,
conducting, and closing phases of examinations. This documentation is important because it

                                                                                            Page 3
                        Additional Steps Are Needed to Better Ensure Audits
                    Are Expanded to Prior and/or Subsequent Year Returns When
                                  Substantial Taxes May Be Owed



provides the principal evidence that procedures were followed, as well as the foundation for
other control processes such as managerial reviews and the quality measurement systems. The
importance of examiner documentation is further emphasized in management directives,
examiner training materials, and the quality measurement standards.
In addition to the above controls, SB/SE Division management has continued to implement
various approaches to emphasize the expectation that examiners inspect and select prior and/or
subsequent year tax returns for audit, when warranted. Specifically, during Fiscal Years
(FY) 2009 and 2010, Examination function management took the following actions as the result
of recommendations from a FY 2009 Treasury Inspector General for Tax Administration report:1
    •   Updated IRM 4.10.9, Examination of Returns, Workpapers, to require TCOs to utilize the
        Lead Sheet 130 to document the audit potential of prior and/or subsequent year returns.
    •   Revised Examination Workpapers (Form 4700) and related workpapers to correspond
        with the use of lead sheets.
    •   Highlighted the importance of the RFCs and selecting prior and/or subsequent year
        returns as part of a quality examination in the July 2009 “Keys to Success” newsletter
        and the August 2010 issue of “Technical Digest.”
    •   Included a mandatory training module that emphasized the RFCs and proper
        consideration of the prior and/or subsequent year returns in the FY 2009 Examination All
        Managers’ Continuing Professional Education.
    •   Discussed requirements with area technical analysts during monthly conference calls and
        required specific actions to be implemented within the SB/SE Division.
To its credit, our review found that the IRS has successfully implemented procedures to ensure
consistent filing verification of prior and/or subsequent year tax returns. Specifically, we found
that in 92 (92 percent) of the 100 sample cases reviewed, TCOs inspected and correctly verified
the filing status of the prior and/or subsequent year tax returns in the IRS’s automated
information systems. When we project our sample results to our population of 2,932 closed
audits, we are 95 percent confident that the range of correctly inspected and verified cases is
between 2,543 and 2,851. By performing these checks, the IRS promotes taxpayer compliance
by confirming all required tax returns are filed.
Although there are layers of management controls in place to guide examiners through the RFCs,
our results indicate that additional steps can be taken to improve the quality of RFCs.




1
 Examiners Did Not Always Properly Select the Prior and/or Subsequent Year Tax Returns (Reference
Number 2009-30-034, dated February 13, 2009).
                                                                                                    Page 4
                      Additional Steps Are Needed to Better Ensure Audits
                  Are Expanded to Prior and/or Subsequent Year Returns When
                                Substantial Taxes May Be Owed



Additional Steps Are Needed to Enhance the Quality of Required
Filing Checks
We evaluated a statistical sample of 100 single-year audits of individual returns for which the
taxpayers involved agreed they understated their tax liabilities by more than $4,400. Although
similar tax issues may have existed on the returns these individuals filed for the prior and/or
subsequent tax years, the audits were not expanded to these other returns in 48 (48 percent) of
the 100 sample cases we reviewed. As a result, opportunities may have been missed to address
the noncompliance that contributes to the Tax Gap and promote tax system fairness among the
vast majority of taxpayers who properly report and pay their taxes year in and year out.
For example, we found 6 instances where taxpayers agreed they owed additional taxes ranging
from $7,700 to $36,900 after audit adjustments were made to their tax liabilities because they
underreported their income and/or overstated itemized deductions. In 7 other audits, individuals
agreed they owed a total of $98,800 in additional taxes because each individual could not
substantiate at least $30,000 of business expenditures.
Overall, we estimate the 48 individuals involved in the audits that were not expanded to include
their prior and/or subsequent year returns may have avoided additional tax, interest, and penalty
assessments totaling $461,184 for Tax Years 2005 through 2008. When the sample results
are projected to our population of 2,932 closed audits, the results indicate that approximately
1,407 taxpayers may have avoided $13.5 million in additional tax, penalty, and interest
assessments for Tax Years 2005 through 2008. The projection is based on a 95 percent
confidence level. We expect the number of taxpayers who may have avoided additional
assessments to fall between 1,124 and 1,691 and the total assessments avoided to range from
$9.3 million to $17.7 million.
In contrast to our case review results, the SB/SE Division’s quality measurement staff reported
that, for FY 2010, examiners appropriately expanded audits to the prior and/or subsequent year
returns in 89 percent of the cases they reviewed. Although we did not audit the accuracy of the
results reported by the SB/SE Division’s quality measurement staff, one reason that could
account for the difference between our results and those reported by the SB/SE Division’s
quality measurement staff was the information sources used to evaluate the cases. We accessed
the IRS’s automated information systems to supplement case files with hard copy transcripts of
prior and/or subsequent year returns so we had a more complete picture of each case. According
to IRS officials, the SB/SE Division’s quality measurement staff makes their evaluations based
on the information contained in closed case files. Another potential reason for the difference
could be attributed to the fact that the IRS strictly adhered to the cycle time guidelines when
determining whether the examinations should have been expanded to the prior year returns while
we did not. Our results related to expanding examinations to the prior year when the end of the
audit cycle is imminent or had already expired will be discussed later in this report. Lastly, the
differences in our results could also be attributed to the populations from which the samples were

                                                                                           Page 5
                        Additional Steps Are Needed to Better Ensure Audits
                    Are Expanded to Prior and/or Subsequent Year Returns When
                                  Substantial Taxes May Be Owed



selected. Specifically, the SB/SE Division’s population included both single-year and multi-year
examination cases while our population only included single-year examinations that were not
expanded to the prior and/or subsequent year as our objective was to test whether those
examinations should have been expanded.
In additional to our concern with expanding audits, TCOs did not properly complete RFCs for
information and employment tax returns in 18 (18 percent) of 100 audits that were part of our
sample. When we project our sample results to our population of 2,932 closed audits, we are
95 percent confident that the range of returns where the RFCs were not properly completed is
between 310 and 746. Although we found only 18 instances where TCOs did not properly
complete RFCs, only 33 of the 100 audits had deductions that were taken for commissions,
contract labor, and wages, and accordingly, completing RFCs for information and employment
tax returns was not applicable for all 100 audits.2 Of these 33 audits, we found only 15 audits
where the TCO properly completed the RFCs for information and employment tax returns. In
several audits, case files were documented to indicate there was no need to complete RFCs for
information and employment tax returns, even though deductions on the tax returns showed
thousands of dollars were paid for contract labor and hundreds of thousands of dollars for
employee wages. Verifying that required information and employment tax returns are filed is
critical for getting the data in the information return reporting system so the IRS can detect,
prioritize, and pursue those individuals who receive compensation and are either not filing tax
returns or underreporting the compensation received on the returns they file.
Our evaluation of the RFCs in our sample audits indicates that a combination of factors caused
the quality concerns that surfaced during this review. We believe that additional steps can be
taken at the examiner and first-line manager levels to improve the quality of RFCs.

Detailed examples in the IRM or other guidance showing when a deviation from
IRS audit cycles is appropriate could encourage expanding audits to more prior
year returns
The IRS strives to keep its audit inventories free of old tax year returns so the IRS has sufficient
time to complete audits and assess any resulting taxes within the 3-year assessment statute of
limitations.3 Since this is not always possible, each year thousands of taxpayers allow the IRS
additional time to complete the audit and assessment processes by consenting to extend the
assessment statute of limitations to either a specific period of time or an unlimited, indefinite
period. From a taxpayer’s perspective, the additional time can be beneficial. For example, a
taxpayer might want to pursue other audit issues that are in their favor in offsetting a proposed
tax assessment or that might allow for a tax refund. Also, if the remaining time before the statute

2
  For the remaining 67 audits, completing RFCs for information and employment tax returns were not required.
3
  When the IRS audits a tax return and determines that there is an additional tax liability, the additional tax
assessment must generally be processed within 3 years from the date the return was due or from the date on which
the return was actually filed, whichever is later.
                                                                                                          Page 6
                      Additional Steps Are Needed to Better Ensure Audits
                  Are Expanded to Prior and/or Subsequent Year Returns When
                                Substantial Taxes May Be Owed



expires is too short, the IRS might have to prematurely stop the audit process and issue a notice
of deficiency that limits the time for the normal appeals process before the taxpayer must file a
petition with the United States Tax Court.
To minimize the need to request consents to extend the assessment statute of limitations from
taxpayers, the IRS established time periods (audit cycles) decades ago that examiners are
expected to strictly adhere to in considering whether to expand audits to prior and/or subsequent
year returns. As specified in the IRM, the audit cycle for an individual income tax return spans
26 months and begins on the later of the date when the tax return is due or when it is filed. The
audit cycle for a business return (corporate, partnerships, etc.) is 27 months. Available evidence
suggests that strict adherence to the audit cycle results in the practice of TCOs rarely expanding
audits to the prior year return.
For example, our case review shows that the vast majority (35 of 48) of our concerns with
taxpayers potentially avoiding additional assessments involved audits that were not expanded to
include the prior year. In addition, our analysis of the 100 single-year audits found that at the
time the audit began, there was an average of less than 1 month remaining on the audit cycle for
the prior year returns, but an average of about 11 months remaining on the assessment statute of
limitations. By the time the single-year audits ended, an average of 6 months remained on the
assessment statute of limitations. Moreover, our expanded analysis of 42,187 Discriminant
Index Function initiated audits of individual returns closed in FY 2010 shows that about
9 percent of audits included a prior year return, while subsequent year returns were included in
about 42 percent of the audits.
IRS officials recognized that potential tax issues existed on the majority (20 of 35) of our
exception cases involving a prior year return. Specifically, our review identified additional
potential tax, penalty, and interest assessments ranging from approximately $1,200 to $41,400.
Although the IRS officials concurred with the potential tax issues, they stated that they agreed with the
TCOs decision to not expand these audits to the prior year returns as doing so would be contrary to the
audit cycle rule and risk incurring an assessment statute of limitation problem. IRS officials
could not point to specific criteria or examples in the IRM or other guidance specifying the type
of tax issues or dollar thresholds that would require greater consideration being given to
expanding an audit to include a prior year return, such as a mandatory discussion with the group
manager.
In contrast, the IRM provides dollar threshold amounts and at least 65 examples of fraud
indicators, including the detailed example below, to assist IRS personnel to recognize potential
fraud during audits and determine when it would be appropriate to expand audits so fraud can be
established.




                                                                                            Page 7
                          Additional Steps Are Needed to Better Ensure Audits
                      Are Expanded to Prior and/or Subsequent Year Returns When
                                    Substantial Taxes May Be Owed



           During the examination of a taxpayer’s Form 1040,[4] the examiner found numerous
           errors resulting in additional tax. One of the adjustments was a large amount of
           unreported income discovered in a concealed bank account. Other adjustments were
           supported with altered documents. The taxpayer gave false information and
           misrepresented the facts throughout the examination. All the acts of the taxpayer, when
           seen as a whole, indicate fraud.
Like RFCs, the IRM also indicates that the responsibility and decision for identifying and
pursuing fraud during audits is largely left to the experience and judgment of examiners and their
immediate managers.

TCOs could take better advantage of IRS automated information systems to
complete RFCs
IRM guidance instructs examiners to complete RFCs during the planning phase of audits, using
the IRS’s automated information systems. These internal sources are designed to provide
examiners with fast, reliable data needed to ensure that taxpayers under audit are filing all
required Federal tax returns and to evaluate the returns for potential areas of noncompliance. At
the same time, the sources also reduce the burden audits impose on taxpayers by avoiding the
need to always request copies of the tax returns that taxpayers already filed with the IRS.
We used the following 4 command codes to obtain data from IRS automated information
systems when evaluating each of the 100 cases in our sample.
      •    BMFOL – This provides online access to business returns and documents related to that
           business that examiners can use to view, compare, and evaluate employment tax returns
           filed by a taxpayer selected for audit. Consequently, it can be very useful for identifying
           and verifying whether the taxpayer has filed required employment tax returns.
      •    IMFOL – This provides online access to individual taxpayer returns that examiners can
           use to determine whether the individual filed their prior and subsequent year returns. As
           noted previously, we found that TCOs inspected and correctly verified the filing status of
           the prior and/or subsequent year tax returns by using the IMFOL command code.
      •    PMFOL – This provides online access to information reports filed by entities, businesses,
           and individuals that examiners can use to view, compare, and evaluate information
           returns filed by a taxpayer selected for audit. Consequently, it can be very useful for
           identifying and verifying whether the taxpayer has filed required information returns.
      •    RTVUE – This provides online access to nationwide tax returns data that examiners can
           use to view, compare, and evaluate specific line items on the individual income tax return
           selected for audit as well as the prior and subsequent year returns. Consequently, it can

4
    U.S. Individual Income Tax Return (Form 1040).
                                                                                                Page 8
                         Additional Steps Are Needed to Better Ensure Audits
                     Are Expanded to Prior and/or Subsequent Year Returns When
                                   Substantial Taxes May Be Owed



        be very useful for identifying tax issues and tax returns that warrant an audit because they
        pose a high compliance risk.
In a judgmental sample5 of 67 TCOs involved in the audits reviewed, we found that although
overall the TCOs have and use the IMFOL and RTVUE command codes, 36 had not been
provided, or did not use, one or both of the PMFOL and BMFOL command codes.
During discussions with IRS officials over this issue, we were told that in some audit groups the
administrative assistants are responsible for accessing IRS automated information systems and
obtaining hard transcripts of the BMFOL, IMFOL, PMFOL, and RTVUE data. Once obtained,
the transcripts are provided to examiners for use during their audits. We were also told that if the
transcripts were obtained and provided to examiners, the documentation should be maintained in
the audit case files.
We checked for documentation of these hard copy data in each of our 100 sample audit case files
and found that 9 (9 percent) of the 100 case files contained BMFOL and/or PMFOL transcripts.
When we project our sample results to our population of 2,932 closed audits, we are 95 percent
confident that the range of case files that contained BMFOL and PMFOL transcripts is between
101 and 426. As previously mentioned, 33 of the 100 cases in our sample had deductions taken
for commission, contract labor, or wages, and, therefore, copies of the BMFOL and/or PMFOL
transcripts would be necessary for the TCOs to verify whether the taxpayer had filed the required
employment tax and/or information returns. Of these 33 audits, we found that 4 case files
included a BMFOL and/or PMFOL transcript.

First-line managers could hold TCOs more accountable for completing RFCs
The Treasury Inspector General for Tax Administration,6 the Government Accountability
Office,7 and the United States Merit Systems Protection Board8 have previously reported that
performance feedback can be a very effective tool in helping employees understand and meet
their responsibilities. It also provides opportunities to give meaningful and constructive
feedback on performance, pinpoint and address performance gaps, and hold employees
accountable for following management directives and delivering results. As the following
excerpt from the United States Merit Systems Protection Board report to the President and
Congress summarizes, continually monitoring and providing feedback to employees is a critical
component of performance management.


5
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
6
  For example, Tests for Unreported Income During Sole Proprietor Field Audits Can Be Strengthened (Reference
Number 2010-30-105, dated September 9, 2010).
7
  Standards for Internal Control in the Federal Government (GAO/AIMF-00-21.3.1, dated November 1999).
8
  The Federal Workforce for the 21st Century: Results of the Merit Principles Survey 2000 (September 2003). The
United States Merit Systems Protection Board is an independent, quasi-judicial agency that oversees and adjudicates
the application of merit system principles within the Executive Branch.
                                                                                                           Page 9
                        Additional Steps Are Needed to Better Ensure Audits
                    Are Expanded to Prior and/or Subsequent Year Returns When
                                  Substantial Taxes May Be Owed



        This component, more than any other, can give employees a sense of how they are doing
        and can motivate them to be as effective as possible. Ideally, through these ongoing
        interactions between employees and supervisors, employees learn how their work fits into
        the goals of the work unit and how it contributes to the larger mission of the agency.
We reviewed the performance feedback recorded in the Embedded Quality Review System9
(EQRS) that first-line managers provided to 17 TCOs in FYs 2008 through 2010 and found that
first-line managers were taking advantage of the EQRS to provide written performance feedback
to TCOs that generally emphasized the importance of RFCs. However, we also identified some
opportunities where the consistency and quality of the feedback could be enhanced. For
example, 1 TCO received no written feedback through the EQRS on their RFCs in any of the
3 years reviewed, while another TCO received 20 narrative comments addressing RFCs.
Moreover, we found only 12 narrative comments in the EQRS about steps that could be taken to
improve the quality of RFCs, which could expedite the process and reduce burden on taxpayers.
Examples of such narrative comments include the following:
    •   You are initiating, as warranted multi-year examinations. This should be done early on
        in the exam process to prevent cases from aging.
    •   You are identifying multi-year exams. Make sure to initiate as soon as possible to
        prevent key case from aging unnecessarily.
According to IRS officials, the 17 employees in our judgmental sample may have received
additional written feedback regarding the quality of their RFCs that was not recorded in the
EQRS. We did not attempt to secure and evaluate this additional information because the IRM
indicates that although first-line managers may conduct informal, undocumented reviews of case
quality, it specifically requires all formal reviews to be documented using the EQRS.
In addition to reviewing the EQRS, we evaluated the narrative comments in the 54 mid-year and
annual appraisals the 17 TCOs received for FYs 2009 and 2010 and found similar opportunities
for the consistency and quality of feedback regarding RFCs to be enhanced. We found that 10 of
the 17 TCOs received specific feedback emphasizing the importance of expanding audits to prior
and/or subsequent year returns, while only 3 received specific feedback about verifying that
required information and employment tax returns were filed. We also found that 7 of the
17 TCOs did not receive any performance feedback over the 2 year period in either their mid-
year or annual appraisals related to expanding their audits to prior and/or subsequent year returns
or verifying that required information and employment tax returns were filed. Similar to the
EQRS results, we found only two narrative comments in either mid-year or annual appraisals
about steps that could be taken to improve the quality of RFCs.



9
  The EQRS allows managers to provide timely feedback to individual employees through performance case
reviews.
                                                                                                     Page 10
                        Additional Steps Are Needed to Better Ensure Audits
                    Are Expanded to Prior and/or Subsequent Year Returns When
                                  Substantial Taxes May Be Owed



Recommendations
The Director, Exam Policy, SB/SE Division, should provide:
Recommendation 1: Detailed examples to TCOs in the IRM, or in other guidance material,
on when it would be appropriate for them to expand audits to the prior and/or subsequent year
returns.
        Management’s Response: IRS management agreed with this recommendation and
        plans to prepare two articles for internal publication. One article will be published in the
        SB/SE Division’s “Keys to Success” and the other in the SB/SE Division’s “Technical
        Digest.” The articles will emphasize the mandatory RFCs and provide examples that
        illustrate when it is appropriate to expand examinations to prior and subsequent year
        returns.
Recommendation 2: Information to TCOs that focuses on improvement in the use of the
IRS’s automated information systems to enhance the quality of their RFCs.
        Management’s Response: IRS management agreed with this recommendation. To
        enhance the quality of office examination RFCs using the IRS’s automated information
        systems, they will prepare a PowerPoint presentation that will be used to conduct a
        workshop for office examination management and examiners. The RFCs workshop will
        focus on the use of Integrated Data Retrieval System10 command codes to accomplish the
        RFCs required by the IRM.
Recommendation 3: Additional guidance to first-line managers to improve the feedback
provided to TCOs in the EQRS and/or in appraisals on the quality of their RFCs and related
opportunities for improvement.
        Management’s Response: IRS management agreed with this recommendation and
        will provide additional guidance to first-line managers to improve the feedback provided
        to TCOs on the quality of their RFCs and related opportunities for improvement in the
        EQRS and/or appraisals. In addition, the guidance will cover all feedback provided to
        TCOs including individual case reviews, inventory management reviews, training
        sessions, and mid-year and annual appraisals.
        Office of Audit Comments: Although IRS officials agreed with all three
        recommendations, they did not agree with the potential monetary benefits associated with
        the recommendations. Among the concerns, IRS officials noted that our results are based
        upon a sample from a special population of audits which excluded the vast majority of
        the cases worked by TCOs. We agree that only single-year audits of individual returns

10
  The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
                                                                                                         Page 11
              Additional Steps Are Needed to Better Ensure Audits
          Are Expanded to Prior and/or Subsequent Year Returns When
                        Substantial Taxes May Be Owed



for which the taxpayers involved agreed they understated their tax liabilities by more than
$4,400 were included in our case reviews. We purposely limited the cases reviews, and
the potential benefit, to this population of audits because of the questions that can be
raised under IRS procedures about why the audits were not expanded to include prior
and/or subsequent year returns given the substantial amount of taxes that the individuals
agreed was owed. Moreover, the accuracy and validity of our potential benefit was
confirmed by a statistician in the private sector who provides consulting service to the
Treasury Inspector General for Tax Administration. As a result, we maintain that the
potential benefit is reasonable as outlined in Appendix IV.
IRS officials also indicated in their response that their internal review process, which they
said involves a statistically valid sample of the entire population of examined returns,
indicates examiners appropriately expanded audits in 89 percent of the cases reviewed.
As for the differences in our findings (48 percent were not appropriately expanded to the
prior and/or subsequent year) and the results from the IRS internal review process
(11 percent were not appropriately expanded), several factors, as noted in our report,
could have contributed to the differences.
Specifically, one reason was the information sources used to evaluate the cases. We
accessed the IRS’s automated information systems to supplement case files with hard
copy transcripts of prior and/or subsequent year returns so we had a more complete
picture of each case. According to IRS officials, their internal review process is based on
the information contained in closed case files. As previously discussed, we also limited
our case reviews to audits of individual returns for which the taxpayers involved agreed
they understated their tax liabilities by more than $4,400. In contrast, IRS officials said
their internal review process involves a sample from the entire population of audits,
which would presumably include audits that resulted in little or no additional
recommended taxes. According to IRS procedures, audits that result in little or no tax
would not likely provide any reason for expanding the audit to include the prior and/or
subsequent year returns.
Finally, IRS officials noted in their response that performance feedback is sometimes
provided in attachments, which are stored outside of the EQRS. Consequently, IRS
officials indicated that our review may have missed some of the feedback given to
examiners regarding RFCs. We did not attempt to secure and evaluate this additional
information because the IRM indicates that although first-line managers may conduct
informal, undocumented reviews of case quality, it specifically requires all formal
reviews to be documented using the EQRS.




                                                                                    Page 12
                         Additional Steps Are Needed to Better Ensure Audits
                     Are Expanded to Prior and/or Subsequent Year Returns When
                                   Substantial Taxes May Be Owed



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether TCOs in the SB/SE Division are conducting
RFCs in accordance with IRS policies and procedures. To accomplish this objective, we:
I.      Determined the policies, procedures, and techniques (management controls) the IRS has
        in place to ensure that TCOs adequately perform RFCs.
II.     Determined how well TCOs are complying with policies and procedures applicable to
        RFCs and if expanding audits to include additional returns would enhance revenues by
        performing the following:
        A. Obtained an extract from the Audit Information Management System1 Closed Case
           FY 2009 data file to identify the population of return cases closed by TCOs (group
           codes 2000–2999) which were also Audit Information Management System Activity
           Codes 274–281 (sole proprietor and high-income returns), had an agreed assessment
           of more than $4,400, and were not expanded to the prior and/or subsequent year
           returns.
        B. Validated the data by comparing the data to the Integrated Data Retrieval System2
           files to ensure that there was examination activity during FY 2009.
        C. Selected a statistical sample of 100 closed audits to review from the population of
           2,932 closed single-year audits identified in Step II.A using a 95 percent confidence
           level, ± 9.68 percent precision, and 50 percent occurrence rate. A statistical sample
           was taken because we wanted to estimate the number of taxpayers and amount of
           dollars associated with not properly complying with RFCs during audits for a
           population of 2,932 single-year audits involving 2,932 taxpayers.
        D. Assessed whether TCOs complied with RFCs and if there may be opportunities to
           enhance revenue. For revenue enhancements, we calculated the potential penalties,
           taxes, and interest missed because audits were not expanded to include prior and/or
           subsequent year returns.




1
  A computer system used to control returns, input assessments/adjustments to the Integrated Data Retrieval System,
and provide management reports.
2
  The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
                                                                                                          Page 13
                         Additional Steps Are Needed to Better Ensure Audits
                     Are Expanded to Prior and/or Subsequent Year Returns When
                                   Substantial Taxes May Be Owed



III.     Identified potential reasons for the problems identified in the cases reviewed by assessing
         the quality and amount of performance feedback TCOs received on their RFCs from their
         managers and the level of access they have to the Integrated Data Retrieval System.
         A. Analyzed the feedback given to a judgmental sample of 17 TCOs included in our case
            reviews during FYs 2008 through 2010 by extracting the information recorded in the
            EQRS attributes (i.e., Attributes 104 and 108)3 dealing with prior year returns,
            subsequent year returns, related tax returns, and full compliance checks. We used
            judgmental sampling to select the TCOs because we did not plan to project our
            results.
         B. Reviewed the FYs 2009 and 2010 mid-year and annual appraisals to identify
            feedback related to RFCs that was given to the judgmental sample of 17 TCOs in
            Step III.A.
         C. Determined whether the TCOs in Step III.A had access to and/or used the Integrated
            Data Retrieval System command codes, such as BMFOL, IMFOL, PMFOL and
            RTVUE, that are needed to complete filing checks.
         D. Obtained an extract from the Audit Information Management System Closed Case
            FY 2010 data file to identify the population of Discriminant Index Function initiated
            closed cases with Source Code “02” and Source Code “20” with Special Project Code
            “0158” closed by TCOs (group codes 2000–2999) that were also Activity Codes 266
            or 274–281 (individual tax returns) to determine how often the primary year
            examination is expanded to the prior and/or subsequent year.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
determining, during income tax audits, whether TCOs are examining all prior and subsequent
year returns, when warranted, and verifying full compliance with information return
requirements. We evaluated these controls by reviewing source materials and reviewing a
sample of 100 examined closed cases.



3
  EQRS attributes are concise statements of SB/SE Division’s expectations for quality examinations and are
guidelines to assist examiners in fulfilling their professional responsibilities. Attribute 104 measures if the examiner
considered the prior year, subsequent year, and related returns during the examination when warranted. Attribute
108 measures if the examiner performed RFCs for returns other than those measured by Attribute 104 (e.g.,
information returns and employment tax returns).
                                                                                                              Page 14
                    Additional Steps Are Needed to Better Ensure Audits
                Are Expanded to Prior and/or Subsequent Year Returns When
                              Substantial Taxes May Be Owed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Audit Manager
Cynthia Dozier, Lead Auditor
Malissa Livingston, Lead Auditor
Kristi Larson, Senior Auditor
William Tran, Senior Auditor
Bridgid Shannon, Auditor




                                                                                      Page 15
                    Additional Steps Are Needed to Better Ensure Audits
                Are Expanded to Prior and/or Subsequent Year Returns When
                              Substantial Taxes May Be Owed



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 16
                           Additional Steps Are Needed to Better Ensure Audits
                       Are Expanded to Prior and/or Subsequent Year Returns When
                                     Substantial Taxes May Be Owed



                                                                                      Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Increased Revenue – Potential; $13.5 million in additional taxes, penalties, and interest owed
       by 1,407 taxpayers; $67.6 million over 5 years (see page 5). Our calculation assumes that tax
       issues present on the prior and/or subsequent year return would be disallowed at the same
       rate as the tax issues disallowed on the primary year return. The value of the outcome
       measure does not include amounts (revenue) that would partially offset this benefit as a result
       of directing examination resources away from other taxpayer returns in order to expand
       audits to include the prior and/or subsequent year returns.

Methodology Used to Measure the Reported Benefit:
•      We reviewed a statistically valid sample of 100 cases from a population of 2,932 closed
       single-year return examinations of sole proprietors and high-income taxpayers in FY 2009
       who had agreed assessments of more than $4,400 each.
•      We identified 48 cases that may have warranted expanding the audit to the prior and/or
       subsequent year return due to similar tax issues being present on these returns.
•      Based on our sample error rate of 48 percent (48/100) and a confidence level of
       95 percent (9.67 percent precision), we calculated the number of taxpayers who may owe
       additional taxes, penalties, and interest to be 1,407 taxpayers [2,932 x 48 percent], with a
       range of 1,124 to 1,691.
•      To estimate the potential amount of additional taxes, penalties, and interest that may have
       been assessed for these 48 cases, we computed the additional tax liabilities for the prior
       and/or subsequent year if tax issues similar to those that resulted in adjustments to the
       primary year return were present. Based on this analysis, we estimated that had the audit
       been expanded to the prior and/or subsequent year for the 48 cases in our sample, $363,045
       in additional taxes, $19,293 in penalties, and $78,846 in interest could have been assessed.1



1
    Amounts are rounded to the nearest dollar.
                                                                                               Page 17
                        Additional Steps Are Needed to Better Ensure Audits
                    Are Expanded to Prior and/or Subsequent Year Returns When
                                  Substantial Taxes May Be Owed



•   We calculated the average additional taxes, penalties, and interest for all 100 cases in our
    sample [$461,184/100 = $4,612].2
•   We then multiplied the number of cases in the total population by the average amount due
    from our sample cases to get the total amount of additional taxes, penalties, and interest owed
    for these examination cases closed in FY 2009 [2,932 x $4,612 = $13,522,384].3
•   To estimate the amount of additional taxes, penalties, and interest owed that could be
    assessed over 5 years if the IRS expanded audits to the prior and/or subsequent year returns
    when similar tax issues are present, we multiplied the total amount of additional taxes,
    penalties, and interest we estimated is owed for the examination cases closed in FY 2009 by
    5 to obtain the amount of taxes, penalties, and interest that would be owed over 5 years
    [$13,522,384 x 5 = $67,611,920]. Our calculation assumes that all estimated taxes, penalties,
    and interest would be owed based upon audits of the taxpayers’ books and records and that
    conditions such as economic factors, tax law, compliance rates, and IRS audit coverage
    remains the same.




2
 Amounts are rounded to the nearest dollar.
3
 Using the computed standard deviation of $7,235 for our sample, we are 95 percent confident that the total amount
owed for the examination cases closed in FY 2009 will be between $9,385,262 and $17,658,572.
                                                                                                         Page 18
        Additional Steps Are Needed to Better Ensure Audits
    Are Expanded to Prior and/or Subsequent Year Returns When
                  Substantial Taxes May Be Owed



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 19
    Additional Steps Are Needed to Better Ensure Audits
Are Expanded to Prior and/or Subsequent Year Returns When
              Substantial Taxes May Be Owed




                                                     Page 20
    Additional Steps Are Needed to Better Ensure Audits
Are Expanded to Prior and/or Subsequent Year Returns When
              Substantial Taxes May Be Owed




                                                     Page 21
    Additional Steps Are Needed to Better Ensure Audits
Are Expanded to Prior and/or Subsequent Year Returns When
              Substantial Taxes May Be Owed




                                                     Page 22
